<html>
<title> - ENERGY-RELATED CHALLENGES AND OPPORTUNITIES IN REMOTE AND RURAL AREAS OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 115-513]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-513
 
                     ENERGY-RELATED CHALLENGES AND
      OPPORTUNITIES IN REMOTE AND RURAL AREAS OF THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2018

                               __________
                               
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
 


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 30-280                WASHINGTON : 2020       
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
               Chester Carson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Spencer Gray, Democratic Professional Staff Member
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3
Hoeven, Hon. John, a U.S. Senator from North Dakota..............     6

                               WITNESSES

Plowfield, Carole M., Director, Office of Indian Energy Policy 
  and Programs, U.S. Department of Energy........................     6
Greek, Matt, Senior Vice President of Research, Development and 
  Technology, Basin Electric Power Cooperative...................    13
Hardy, Doug, General Manager, Central Montana Electric Power 
  Coopera-
  tive...........................................................    20
Lyons, Andrew, Weatherization/Energy Assistance Manager, 
  HopeSource.....................................................    25
Venables, Robert, Executive Director, Southeast Conference.......    34

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Public Gas Association:
    Letter for the Record........................................   122
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Greek, Matt:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Responses to Questions for the Record........................   102
Hardy, Doug:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Responses to Questions for the Record........................   109
Hearth, Patio & Barbecue Association:
    Letter for the Record........................................   125
Hoeven, Hon. John:
    Opening Statement............................................     6
Lyons, Andrew:
    Opening Statement............................................    25
    Written Testimony............................................    27
    Responses to Questions for the Record........................   117
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
    Chart entitled ``Road Belt Inter-Tie''.......................    71
Plowfield, Carole:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................    96
Utilities Technology Council:
    Statement for the Record.....................................   128
Venables, Robert:
    Opening Statement............................................    34
    Innovation, Inspiration, & Opportunity -- Artwork submitted 
      by Alaskan Students in Grades 5-8..........................    35
    Written Testimony............................................    54
    Responses to Questions for the Record........................   120


 ENERGY-RELATED CHALLENGES AND OPPORTUNITIES IN REMOTE AND RURAL AREAS 
                          OF THE UNITED STATES

                              ----------                              


                        THURSDAY, APRIL 19, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    Welcome to our witnesses.
    I want to just make a quick note that struck me when I was 
looking at the background of each of you this morning and what 
you will contribute. The five witnesses today who will discuss 
rural and remote energy, they come from five different time 
zones across the country. We used to have five in the State of 
Alaska, but we decided to be more efficient, and we are now 
down to just two, but we have folks from five different time 
zones. So it is a group that can cover a lot of ground, both 
literally and figuratively.
    Robert, Mr. Venables, I don't even think the sun is up in 
Juneau yet, hopefully it will be a good day there. Mr. Lyons is 
from Washington State. Mr. Hardy joins us from Montana. Mr. 
Greek, North Dakota. And Ms. Plowfield is representing home 
court here on Eastern Time.
    This diversity is a reminder that we have rural and remote 
communities all over the United States. We are here today to 
focus on their energy challenges and opportunities in the hopes 
of moving the ball forward on more affordable, more reliable 
and increasingly clean energy for all of them.
    Now, depending on the definition of rural that you adopt, 
anywhere from 15 to 20 percent of our nation's population lives 
in a rural area. According to the U.S. Census Bureau, that 
totaled 60 million people as of December 2016, with nearly 75 
percent of our national landmass considered rural.
    In Alaska, we paint a pretty extreme picture. We say it is 
a beautiful picture, but when it comes to rural, it is more 
than rural, it is ``bush''--and rural takes on a truly 
different connotation.
    We have 234 communities that are outside of our 
``Railbelt'' area, which is an area that is a road system that 
goes up, down, kind of in a triangle. Outside of that Railbelt 
we have these communities that comprise maybe 20 people. Some 
of the largest communities that are off the Railbelt are about 
8,000 people, so very small populations.
    Just over three-quarters of those communities are not 
accessible by road or the marine highway system, our ferry 
system. When you put it in context, about 80 percent of the 
communities in the State of Alaska are not connected by what 
folks down here would just assume you have to be connected by 
road, because if you are not connected by road how do you get 
anywhere? How do you do anything? Well, it makes things just a 
little bit more expensive, a little bit more complicated.
    By one measure, rural Alaskans pay more than twice as much 
to heat their homes than folks in the Lower 48. Electric rates 
are so high that the state has implemented what we call a Power 
Cost Equalization (PCE) program, which helps subsidize energy 
costs. We have discussions all the time about well, what do you 
pay in the community of Haines for your energy? The discussion 
is not so straightforward because if you are residential, and I 
don't think Haines necessarily is, are they available for PCE? 
Okay, so, if you are residential, your rate is going to be able 
to be subsidized through Power Cost Equalization. If you are a 
commercial entity, like a barber shop, you do not have that. So 
you can be looking at some pretty considerable differentials in 
terms of your rates.
    We have just under 200 PCE-eligible communities. Their 
average residential rate is $0.58 a kilowatt-hour. Now compare 
that to Vermont which understand is about $0.15 a kilowatt-
hour. What you have are these communities that are relying on 
costly diesel fuel for heat and electricity. The cost of the 
energy carries over to everything else that they do.
    And it is not just for those that are off the road system. 
I met with folks this week about what we call our ``Road Belt'' 
area. Within that Road Belt area these systems are not 
connected, necessarily, to one another. The little community of 
Chitina is paying over $1 a kilowatt-hour, and they are on the 
road system. Communities like this are just not sustainable, 
and I think we recognize that.
    In Alaska, Montana, Hawaii, North Dakota, any number of our 
states, too many people are living on the edge of what Senator 
Tim Scott and I call ``energy insecurity.'' There is real 
trouble in too many households when already expensive energy 
bills just keep piling up.
    I have told this story many times, but I was in an interior 
river community up off of the Yukon River, having a little town 
hall meeting. A woman came up to me, and she had an infant in 
her arms that she was providing foster care for--and she gave 
me a receipt. It was a receipt for $50 for five gallons of home 
heating fuel. She said, ``I had to make a decision as to 
whether or not I was going to buy heating fuel to keep the 
house warm or whether I could afford to buy baby formula for 
the baby.'' And she said, ``I'm just going to have to stretch 
the baby formula, because it's too cold right now in Aniak.''
    You look at that, and I carried that receipt around. I 
still have that receipt, because it is a powerful reminder of 
the tradeoffs that far too often our families have to make.
    Now where there is challenge, there is also opportunity. 
That is part of the reason why we are seeing innovation bring 
costs down in many of our rural and remote areas, often by 
adding locally available resources such as hydropower, wind, 
geothermal or woody biomass onto our microgrids.
    I think we all recognize that rural energy is a priority 
for so many members on this Committee. I think we all recognize 
how important it is to tackle the challenges that these 
Americans face through smart, effective policies.
    That is why so many of us support the state energy, the 
LIHEAP and the weatherization assistance programs. I think we 
know full well the imperative of these programs for so many 
families.
    It is why so many of us are working on legislation to boost 
and improve rural energy systems--and that includes the broad 
bipartisan energy bill, pending on the Senate calendar. Senator 
Cantwell and I are committed still to advancing this. We have 
worked hard on this as a Committee, and I think those 
provisions will benefit our remote communities.
    One specific example of that in our energy bill is the 
effort to open the DOE's loan guarantee program to the states 
to help provide financing for a larger number of small projects 
that would otherwise not be considered.
    So again, I thank our witnesses for being here this 
morning, I know you have all come from far away places. I 
appreciate the perspectives that you will lend to the Committee 
and appreciate your time.
    With that I turn to Senator Cantwell for your opening.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. Thank you for 
holding this important hearing today.
    I want to welcome Andrew Lyons here from Ellensburg, 
Washington, and I look forward to what he says.
    You are right. This is a broad spectrum of witnesses from 
across the United States. I wouldn't blame you if we had a 
hearing just on rural energy costs in Alaska alone.
    I think this is such an important issue. I think it is such 
an important challenge for our nation.
    Having toured Alaska with you and other members of your 
delegation, it literally hurts my heart to see the high cost of 
energy in an area of the United States of America. We have to 
do better, and the technology resources are there, I believe, 
to do better, but I think we have to help you and other members 
of the Committee who are in similar situations figure out cost-
effective ways to do these demonstrations so we can find 
scalable solutions to these issues. I pledge to you, I am happy 
to have another hearing focused just on these technology 
solutions and possibilities for Alaska.
    I have pointed out many times, as Alaska's economy grows, 
so does the Pacific Northwest's. So we have a little bit of 
interest at hand as well.
    That is why it is so hard to sit here and tell the other 
side of the story, that more than a million Washingtonians who 
live in rural parts of our state have benefited from one of the 
most successful federal initiatives in our nation's history. 
The electrification that came with the legacies of The New Deal 
have brought us electricity rates at $.03 to $.04 kilowatt-hour 
rates.
    So what happened is the Bonneville Power Administration 
brought that light to farmers and to rural towns across our 
state, and it has paid benefits over and over again. It built 
our economies on various industries, but today companies like 
BMW go to Moses Lake because of cheap electricity. Our biggest 
problem today is that bitcoin miners are there to take 
advantage of the scrambling. Cheap electricity rates are almost 
overwhelming the utilities. People are putting up bitcoin 
mining sites in shacks, garages, and houses just to capitalize 
on that cheap electricity.
    So the calling card, the cheap electricity, is still a 
beacon, and that is why it is so important that we continue to 
focus on these issues in other parts of our country.
    The President's proposal to abandon Bonneville Power 
transmission issues is not something anybody here, I think, is 
going to support and obviously, as you pointed out, when you 
have high energy costs, people skip other things that are so 
important, whether that is food or medicine.
    So we need to focus on energy efficiency programs that are 
critical to rural communities. I know Mr. Lyons is going to 
talk about that. You mentioned weatherization, and I am glad 
that my colleagues continue to support those efforts. I think 
Mr. Lyons is also going to address that.
    Obviously, rural communities need more access to reliable, 
affordable energy. I know that, as you mentioned, there are 
various initiatives that you have taken in the Energy bill that 
we need to get done so we can continue to address this.
    The fact that weatherization saves low-income families 23 
percent on their energy costs is something, I think, we should 
continue to focus on how we might, in the short-term, continue 
to use that as a way to help communities.
    Ms. Plowfield, obviously from the DOE perspective, tribal 
energy programs are so important. I strongly support the 
technical assistance and competitive matching grants that are 
used by so many tribes. DOE support ranges from solar panels on 
the Spokane Indian reservation to coastal resiliency planning 
grants to places like the Makah Tribe, which is in one of the 
most remote parts of our state.
    I hope that we can learn today how we might be able to use 
that program in a more aggressive way. As I mentioned on some 
of these scalability issues, if there are ways that tribes in 
Indian Country can work with DOE on demonstrating scalable 
solutions that may not otherwise be able to get the technical 
assistance, I think that would be a really great avenue for us 
to work on.
    So thank you so much for this hearing, Madam Chair. And 
thank you to the witnesses. I look forward to hearing what you 
have to say.
    The Chairman. Thank you, Senator Cantwell.
    We will think about a way to profile the issues, the high 
cost issues, in Alaska, whether it is a hearing here--we had a 
very successful field hearing in Cordova. I thank you for 
coming out to that. But again, that was an opportunity to just 
see a little bit of what microgrids do. Some of my colleagues, 
I know Senator Daines and some others, had an opportunity to go 
with us out to Oscarville, just outside of Bethel, and see, 
along with Secretary Moniz at the time, some of the challenges, 
but again, the opportunities that are out there. I look forward 
to exploring that with you.
    Senator Cantwell. I know you wanted us to drive a 
snowmobile on a frozen river. I know that----
    The Chairman. It was safe at that time. It is now spring, 
so I am not going to advise that we do that.
    I did have an opportunity to learn a little bit more about 
the fascinating and the very great history in your state and 
the contributions of other Washingtonians. Homer T. Bone--I was 
a recipient of an award from the NWPPA, the Northwest Public 
Power Association, and we got a little bit of a history about 
his involvement as a Senator from Washington and a good 
reminder of what went on there that has provided enduring 
benefit for the people in the region. It is really a great 
story about American energy initiative and ingenuity.
    With that, let's begin with our witnesses. I would like to 
welcome you all.
    Ms. Carole Plowfield will begin our testimony this morning. 
She is the Director----
    Senator Hoeven. Madam Chair, if I may, could I do an 
introduction before you have the witnesses testify?
    The Chairman. Yes, yes.
    Senator Hoeven. At the proper time.
    The Chairman. I was going to let you introduce Mr. Matt 
Greek.
    Senator Hoeven. Perfect.
    The Chairman. Let me begin with just noting Ms. Plowfield 
is the Director of the Office of Indian Energy Policy and 
Programs (OIE) there at DOE. We appreciate you being here.
    I will have Senator Hoeven introduce Mr. Greek, but let me 
skip over and just do the others here quickly.
    Mr. Hardy is with us as the General Manager of Central 
Montana Electric Power Cooperative. We like to have the co-ops 
here, getting their perspective. We appreciate all that you do.
    I think between what we have in North Dakota and what we 
have in Montana and the impact of our cooperatives, there are 
more than 900 cooperatives in 47 states serving about 42 
million Americans. I think the challenges for the co-ops are 
pretty unique, but we will hear a little bit from you folks 
this morning.
    Mr. Lyons was introduced a little bit by Senator Cantwell. 
He is the Weatherization and Energy Assistance Program Manager 
of HopeSource in Ellensburg, Washington.
    Mr. Robert Venables has been before the Committee on 
previous occasions. He is the Executive Director of Southeast 
Conference from Juneau, formerly from Haines, formerly all over 
Southeast Alaska. I know you rack up your Alaska Airlines miles 
and this trip is just another example. We appreciate your 
leadership here.
    Senator Hoeven, I would ask you to introduce your 
constituent from North Dakota.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Madam Chairman.
    I am very pleased this morning to welcome Mr. Matt Greek as 
one of our experts providing testimony this morning. He is the 
Senior Vice President for Research and Development at Basin 
Electric.
    You mentioned the cooperatives. Basin Electric is actually 
a generation and transmission cooperative that is owned by the 
rural electrics collectively and serves about three million, or 
probably more than three million, customers in about nine 
states. They are very innovative and creative so you have the 
right person here with Matt, because they are not only doing 
leading edge technology development in coal-fired electric, 
they also have gas and they also have a lot of wind and 
transmission which is a huge issue as both you and the Ranking 
Member are so well aware.
    So they are really doing some exciting things. You will get 
to hear about it a little bit today. The Allam cycle, which is 
carbon capture and sequestration.
    Basin also owns the Dakota gasification facility which 
takes coal mined in North Dakota, converts it to liquefied 
natural gas, puts it in the pipeline, captures the CO2 and puts 
that in a pipeline and sends it out to the oil fields for 
secondary oil recovery in addition to making many different 
byproducts, krypton, xenon and many other things.
    And most recently, they just built a half billion-dollar 
fertilizer plant to make urea and hydro from their natural gas 
so that we don't have to get it from Indonesia which shows the 
confluence of energy, agriculture and technology development 
all together.
    I will stop there, but I do have to go to a Defense 
Appropriations hearing. I do want to come back and ask a few 
questions of this outstanding panel, but thanks so much to Matt 
for being here and to you, Madam Chairman, for allowing me to 
make that introduction.
    The Chairman. Absolutely, thank you.
    With that, we will begin the testimony. I would ask you to 
try to keep your comments to about five minutes. Your full 
statements will be included as part of the record, but again, 
we welcome each of you.
    Ms. Plowfield, if you would like to begin.

 STATEMENT OF CAROLE M. PLOWFIELD, DIRECTOR, OFFICE OF INDIAN 
     ENERGY POLICY AND PROGRAMS, U.S. DEPARTMENT OF ENERGY

    Ms. Plowfield. Thank you, Chairman.
    Chairman Murkowski, Ranking Member Cantwell and 
distinguished members of the Committee, I appreciate the 
opportunity to discuss the Office of Indian Energy Policy and 
Programs at the Department of Energy and our efforts to 
implement energy development in Indian Country as you evaluate 
rural energy issues.
    The Office of Indian Energy Policy and Programs serves all 
federally-recognized Indian Tribes, Alaska Native Regional 
Corporations and Village Corporations and Tribal Energy 
Resource Development Organizations. The Office's mission is to 
maximize development and deployment of energy solutions for the 
benefit of American Indians and Alaska Natives.
    In consultation with tribal and other stakeholders, the 
Office of Indian Energy achieves its mission by promoting 
Indian energy development, electrifying Indian Country and 
helping to reduce the cost while increasing reliability of 
Indian energy.
    Our office addresses the challenges that tribal communities 
face, many of them rural, through our three-pronged approach of 
financial assistance, technical assistance and education and 
capacity building.
    Competitive grants are offered periodically for the 
deployment of energy infrastructure on tribal lands. Federal 
staff provide technical assistance upon the request of a tribe 
regarding a specific energy topic or project concept. Education 
and outreach activities include monthly webinars, a college 
student seminar or, excuse me, a college student summer 
internship program, periodic workshops, presentations at 
conferences and other engagement activities outlined on the 
Office of Indian Energy's website, where our staff inform 
tribal members of all the opportunities we have available to 
them.
    Between 2002 and 2017, DOE invested nearly $78 million in 
250 tribal energy projects implemented across the contiguous 48 
states and in Alaska. These projects, however, are valued at 
over $150 million as they are leveraged by over $73 million in 
cost share paid by the recipient tribal groups.
    The Office of Indian Energy is currently working on three 
significant issues: Our funding opportunity announcement, 
supporting the Tribal Energy Loan Guarantee Program, and 
reviewing the organization of our office to ensure that we are 
delivering our services as effectively and efficiently as 
possible.
    DOE announced on February 16, 2018, up to $11.5 million in 
new funding to deploy energy infrastructure on tribal lands. 
Coincidentally, this announcement is closing today, April 19th, 
and we are excited to review the range of grant applications we 
will receive since this is the first time that Indian Energy 
has issued a funding opportunity announcement on an entirely 
fuel and technology neutral basis which will expand the 
potential for tribes to use the particular resources that are 
available to them. And our selection should be made by August 
of this year.
    We are also working to support the development of DOE's 
Tribal Energy Loan Guarantee Program which would help address 
current barriers that tribes face regarding access to capital 
for energy development.
    The FY 2018 Omnibus funding bill enacted on March 23, 2018, 
states that the Department of Energy's Loan Programs Office 
retains all loan authority, and earlier this year Secretary 
Perry delegated to the Loan Programs Office to administer the 
program. They have completed some listening sessions as part of 
an ongoing process that the Office of Indian Energy is 
supporting and more are planned.
    We are also reviewing the organization of our office to 
ensure that we are delivering our services as effectively and 
efficiently as possible. I asked our team in December to 
rethink how we are delivering our technical assistance to 
tribes, and we're currently expanding our network of service 
providers to ensure that we are being good stewards of taxpayer 
dollars.
    In conclusion, I am honored to be here today representing 
the Department of Energy. And I'm grateful for the hard work 
the dedicated staff of the Indian Energy Office, all of them, 
dedicated public servants.
    I would like the Committee to know that although we are a 
small office, our goal is to make a big difference to the 
tribal communities that we serve.
    I would also like to take this opportunity to introduce to 
the Committee our new Deputy Director, Kevin Frost, who is 
behind me. He brings with him a wealth of knowledge and 
experience as a former tribal council member with the Southern 
Ute Tribe who are known for being on the forefront of tribal 
energy and economic development issues. And we're happy to have 
him.
    So we've made a lot of progress, but there is still much 
more to do. Secretary Perry, our DOE team, the Office of Indian 
Energy and all of the tribal partners we serve look forward to 
working with this Committee to provide affordable, reliable and 
resilient energy to tribal communities and to maximize the 
development and deployment of energy projects that add new 
generation capacity and provide cost savings to tribal members.
    Thank you again for the opportunity to appear before you 
today and I look forward to your questions.
    [The prepared statement of Ms. Plowfield follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
      
    The Chairman. Thank you, Ms. Plowfield.
    Mr. Greek, welcome.

  STATEMENT OF MATT GREEK, SENIOR VICE PRESIDENT OF RESEARCH, 
  DEVELOPMENT AND TECHNOLOGY, BASIN ELECTRIC POWER COOPERATIVE

    Mr. Greek. Good morning Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee. As Senator Hoeven 
mentioned, my name is Matt Greek. I'm Senior Vice President of 
Research, Development and Technology at Basin Electric Power 
Cooperative headquartered in Bismarck, North Dakota. I'm also a 
member of the National Coal Council, the Lignite Energy & 
Research Councils, the Carbon Utilization Research Council, a 
director of the Missouri Slope Areawide United Way and a 
registered professional engineer.
    Thank you for the invitation to speak this morning about 
rural energy. Basin Electric is a generation and transmission 
cooperative that provides wholesale electricity to 141 rural 
electric cooperatives who serve three million consumers across 
nine states.
    Basin Electric has a diverse generation portfolio 
consisting of over 6,000 megawatts of coal, natural gas, wind, 
recovered energy, oil, nuclear power and market purchase 
agreements. Our generation resources participate in both the 
MISO and SPP regional transmission organizations.
    Basin Electric and its members have invested billions in 
capital in recent years in fossil-based generation, 
transmission and related infrastructure. I'd refer the 
Committee to my written testimony for additional details on our 
facilities. Basin Electric is actively engaged in ensuring that 
these assets can continue to operate and add value in the 
carbon-constrained future.
    Basin Electric supports commonsense carbon management 
regulation that recognizes improvements already made to 
existing plants, sets a standard that is achievable with cost-
effective technologies that can be applied to the facility 
itself, and allows for maximum flexibility to achieve.
    With respect to technology, Basin is the host site for the 
Integrated Test Center (ITC) that is nearing completion at our 
Dry Fork Station. This test facility will provide space for 
researchers to turn CO2 into a marketable commodity. The State 
of Wyoming invested in this facility and will oversee its 
operation. Last week the finalists that will participate were 
announced, 10 teams from several different countries will 
compete for the $20 million Carbon XPRIZE. Five of those using 
flue gas from coal will compete at the ITC.
    In addition to the ITC, Basin has been exploring options to 
commercialize Allam cycle technology for future power 
generation. Again, I would refer Committee members to my 
written testimony for details of this technology and our 
partners.
    However, I would like to take this opportunity to express 
our support for DOE's Fossil R&D program and stress its 
importance in helping to deploy carbon capture technologies. 
The DOE's continued support is critical to help prove out the 
Allam cycle and other technologies.
    Finally, to this end we appreciate members of this 
Committee and others for bipartisan support of the 45Q Carbon 
Capture Tax Credit that was recently expanded and improved with 
passage of the bipartisan Budget Act earlier this year. This 
tax credit will go a long way toward closing the cost gap for 
potential carbon capture projects.
    We also support introduction of the Utilizing Significant 
Emissions with Innovative Technologies Act. This legislation 
will provide further assistance to relieve the regulatory and 
financial barriers to carbon capture, utilization and 
sequestration technology development.
    Basin Electric owns and/or maintains thousands of miles of 
transmission across several states, much of which crosses 
federal lands. Increasing regulatory requirements have added 
complexity, time and cost to transmission line sighting, 
construction and maintenance. We appreciate the Committee's 
efforts to advance vegetation management and liability relief 
legislation which was included as part of the Omnibus 
Appropriations bill.
    However, as generation continues to be built in response to 
resources and transported to load, as is the case with most 
renewable generation, it is important that federal laws such as 
the National Environmental Policy Act, appropriately respond to 
the effects of transmission and infrastructure development and 
not serve as a barrier.
    As I've discussed, Basin Electric is heavily invested in 
both coal and natural gas generating assets. The development of 
competitive, wholesale markets has provided both challenges and 
opportunities for Basin Electric and its members. However, it 
has become increasingly apparent that power markets could be 
improved to fairly compensate all generation for the services 
that it provides.
    While Basin Electric believed that the DOE proposal on grid 
resiliency was too broad in scope and would have negative 
market impacts, we support the Federal Energy Regulatory 
Commission's efforts to further explore this issue and develop 
equitable market rules for dispatchable generation sources.
    In closing, serving rural America with affordable and 
reliable electricity is not without its challenges. However, 
the cooperative model continues to evolve to serve its mission.
    Thank you for the opportunity to discuss our thoughts. I 
would be happy to answer any questions you might have.
    [The prepared statement of Mr. Greek follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    The Chairman. Thank you, Mr. Greek.
    Mr. Hardy, welcome to the Committee.

           STATEMENT OF DOUG HARDY, GENERAL MANAGER, 
           CENTRAL MONTANA ELECTRIC POWER COOPERATIVE

    Mr. Hardy. Thank you.
    Good Morning Chairman Murkowski, Ranking Member Cantwell 
and the other members of the Committee.
    My name is Doug Hardy. I'm the General Manager of Central 
Montana Electric Power Cooperative based in Great Falls.
    First, I want to thank you for the honor of testifying 
before this Committee. As well I'd like to thank Senators 
Cantwell and Risch and several members who signed a letter to 
OMB opposing the sale of the PMA assets. It's critical to us. 
My last thanks is the action that was taken recently on 
vegetation management. It's a big deal to the Montana Co-ops. 
We appreciate that.
    I'll discuss a few of the challenges in serving the rural, 
and in some cases, the frontier areas of Montana, not the bush 
but the frontier areas of Montana, and challenges of serving 
those areas as well as the importance of hydropower in enabling 
us to have affordable electricity at the end of the line.
    Central Montana is a co-op of co-ops. Our purpose is to 
hold the contracts, manage the contracts and arrange for the 
delivery of power from Western Area Power, one of our main 
sources of power, WAPA, and other suppliers. We do that to a 
third of the co-ops in Montana, 25 co-ops there.
    And some of the things that are difficult for my member 
systems is the fact that if you look at what it takes to 
deliver in Montana alone, if you take the power lines the co-
ops own in Montana and connect them end to end, you would have 
a line long enough to go around the world at the equator, two 
times. Now in my written testimony I had a half in there. 
Strike that half. It's over two times. That was an error on 
typing on a plane, sorry. But still, to go around two times for 
just a few people that we serve in Montana creates some 
infrastructure that's very expensive that we have to pay for.
    If you look at the area of just four of my members, it's a 
geographic area that's larger than the states of Connecticut, 
Delaware, New Jersey, Massachusetts and one other state in 
there. We'll add Connecticut. That much geographic area to 
serve just 10,000 member consumers.
    But my message in that is there is so much infrastructure 
it takes in a rural area compared to in the city and that's 
compounded. The challenge is compounded by the fact of two 
things.
    One of them is that in the rural areas our farmers and 
ranchers have had to get bigger. They've had to take multiple 
farms and put them into one ownership to even get enough to pay 
for the equipment to farm it which means we have fewer people 
in the rural areas to pay for the infrastructure. It also means 
that some of the small communities in the rural areas, schools 
have consolidated eliminating that infrastructure in those 
communities. There's a lot of communities that have empty 
buildings and that's all that's there now.
    And that adds one more level in doing that, unlike serving 
in the urban area where you have a lot of commercial load, it's 
a wonderful asset to have commercial and residential load 
because it gives a broader base to spread those fixed costs, 
your power lines and infrastructure over. So, that's, kind of, 
a double whammy by serving mainly just small farms, ranches and 
homes increasing the challenge which that challenge is met 
partly with the power we get from Western Area Power, in my co-
ops' case.
    If you think about that when my four predecessors entered 
contracts to buy the federal power, it was above what they 
could buy other sources for. They looked at that federal power 
as something that they could enter into in a long-term basis. 
Right now, we're contracted through 2051 for that power because 
it's such a critical affordability issue for our rural 
communities. They may have $0.09 worth of poles and wires 
charge. We have to get a fairly low-cost power to go on that to 
keep them in business because those members at the end of the 
line can ill afford many increases.
    So when we look at that hydro, at how that works for us, 
you can see why we strongly oppose FY'19 budget proposal to 
sell off the PMA assets. There just isn't that room. Those 
people are struggling at the end of those lines and those rural 
areas right now. They don't have the head room. And we can 
think about other things, whether it's--there's a lot of 
different ways you can add costs on to PMA power. And we're, 
kind of, at the limit of what people can afford out in the 
rural areas and anything that's added on adds up and decreases 
that affordability and hurts those people at the end of the 
line.
    We paid for the assets of those federal power in our 
alliance because, through our rates, in all it pays for the 
poles and wires and transmission that the PMAs had. It pays the 
return, the amortized, with interest, assets of the both the 
Corps of Engineers and Bureau of Reclamation and a portion of 
the dam is allocated in those costs. All of that goes in. We 
feel we have a covenant with the PMAs that has served the 
government extremely well because it's our money that pays for 
those and served our members very well because it helps their 
rates be affordable.
    In closing, I thank you for the opportunity to testify. I 
look forward to any questions you may have.
    [The prepared statement of Mr. Hardy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you, Mr. Hardy. We are glad you are 
here.
    Mr. Lyons, welcome.

  STATEMENT OF ANDREW LYONS, WEATHERIZATION/ENERGY ASSISTANCE 
                      MANAGER, HOPESOURCE

    Mr. Lyons. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, thank you for the opportunity to 
testify regarding the role of weatherization in energy 
assistance programs in rural areas in the United States.
    For the past ten years I've had the honor of working with 
these programs and the privilege of seeing how they change 
family's lives. I work for HopeSource, a community action 
council that serves Eastern Washington.
    I was introduced to the concept of weatherization early on 
in my life while growing up in a rural Eastern Oregon community 
that was 75 miles away from the nearest grocery store and 25 
miles away from school. I graduated with a class of four and 
that gives you an idea of how rural it really was.
    As the youngest of six children we had limited financial 
resources. We lived in a drafty, turn of the century home with 
no insulation. To stay warm in the winter we burned over ten 
cords of wood which, I can tell you from personal experience, 
is a lot of wood to cut, haul, split and stack on a yearly 
basis which is maybe why my parents had six children. I'm not 
sure.
    I tell you that story simply to demonstrate some of the 
unique energy challenges in rural communities. Much of the 
existing housing stock is not energy efficient and tends to be 
older and more dilapidated.
    This is further compounded by systemic poverty and higher 
energy rates. Combined, these factors make home weatherization 
and energy assistance programs highly relevant when discussing 
energy challenges facing rural America.
    The number one goal of a weatherization program is to 
reduce energy in the home. A fully weatherized home can save 
between 20 and 30 percent in energy costs. And for low-income 
households, those savings mean a lot because their energy 
burden is often five times that of a non-low-income family.
    Weatherization is often seen strictly as an energy 
efficient program, yet, it's impacts go much further than that. 
Weatherization programs ensure that once a home is weatherized, 
it's also a healthier and safer place to live.
    Recently we completed a project that illustrates the 
multifaceted benefits of energy assistance in weatherization 
programs. Kim is a single parent whose home was heated with 
electric baseboards and an old wood fireplace. Every day she 
struggled to keep the house warm for her two boys. She couldn't 
afford to use the electric baseboards so she was using a 
fireplace instead and worried that it would cause a chimney 
fire. Fortunately, she was able to receive energy assistance at 
HopeSource and our AmeriCorps member, Savannah, was able to 
provide her with some in-home, energy conservation education. 
We then determined that Kim was a perfect candidate for our 
weatherization program. We were able to replace her wood stove 
with an energy efficient ductless heat pump, add attic 
insulation and air seal the home. When we finished our work, 
Kim sent us a letter. She said, I quote, ``I have renewed hope 
living here with my kids. I don't feel embarrassed to have 
others over and my kids can play comfortably in the living room 
without blankets and covers. I appreciate and will remember 
this always.''
    As a nation we reap enormous benefits from the low-income 
weatherization program and dollars saved on energy assistance, 
health care costs, homeless services and the maintenance of the 
country's affordable housing stock.
    Oak Ridge National Laboratory found that for every 
Department of Energy $1 spent, it resulted in nearly $2 in 
energy savings and close to $3 in health-related benefits. 
Looking at our current nation's energy and health care costs, 
the savings potential as a result of weatherization programs is 
substantial.
    Federal funds provide the backbone of the weatherization 
programs across the country. Because of our program's 
structure, we're able to leverage those federal funds to 
receive matching funds from other state, utility and private 
resources.
    This year the weatherization program at HopeSource, where I 
work, we've been able to leverage close to $3 from other 
funding sources for every federal $1 received.
    I've spent my entire life in rural communities that these 
programs serve. Every day I see the dramatic impact they have 
on families.
    My written testimony gives details and statistics on the 
impact of such programs, but I can assure you that the support 
you've given of weatherization and energy assistance programs 
is making a difference in my community and the communities that 
you represent.
    As you know, independence is integral to the character of 
rural communities. I'm extremely proud to live in a country 
that seeks energy independence in part through energy 
conservation. But I am even prouder that, collectively, we are 
willing to give that same opportunity of energy independence to 
rural Americans who need it the most.
    [The prepared statement of Mr. Lyons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Mr. Lyons.
    Mr. Venables, welcome.

  STATEMENT OF ROBERT VENABLES, EXECUTIVE DIRECTOR, SOUTHEAST 
                           CONFERENCE

    Mr. Venables. Thank you, Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee for the opportunity to be 
part of this conversation today.
    I'm Robert Venables, Executive Director for Southeast 
Conference, which is the federally-recognized economic 
development district in Southeast Alaska. I've been privileged 
over the years to work with the Alaska Energy Authority and 
tribes and communities throughout the state on addressing some 
of these challenges.
    As the Chair mentioned earlier, we're a land of extremes. 
Extremely large, extremely beautiful, but extremely expensive 
to live and a gallon of milk in some of these most rural 
communities can be $13 a gallon. It's stifling. But the 
opportunities are equally great, and we're a very resilient 
bunch of folks.
    One thing I'd like to point you to, because I really do 
appreciate the interest the Ranking Member expressed for some 
of the solutions that we found, because whether it's in 
Kotzebue where their wind turbines have saved $40,000 for a 
local hospital or the 11 communities in the Northwest Arctic 
Bureau who above the Arctic Circle has installed solar panels 
to save over $190,000, it is incredible.
    The story that I want to tell you about is from Southeast 
with the Southeast Island School District and how biomass has 
paid an extremely incredible community a life-changing 
experience down there.
    In your packet you see some artwork that was provided for 
you today.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Last week we had the Rural Energy Conference where close to 
400 people gathered from across rural Alaska to address these 
issues. And in preparation for that and the theme of 
innovation, inspiration and opportunity, we asked children in 
grades five through eight, what it is that you want? What is 
the community's energy system? What should it look like when 
you're 50 years old? Of course, the children had to wrap their 
minds around being 50 years old for starters, but you see 
pictorially before you some of those interpretations of what 
they see as opportunities that surround them with their 
resources.
    And yes, we have those challenges of access where there's, 
I'm sure, recited before you, many times, all the different 
challenges we have. I put some of that in my written testimony 
as well.
    But down in Southeast, just displacing diesel at one school 
with biomass, they save enough money for an entire teacher's 
salary for the year. And it didn't stop there. They installed 
greenhouses on the site of the schools. They'll allow the food 
program to have fresh vegetables that are grown right there 
onsite fueled by renewable wood energy.
    It didn't stop there. The children then see as part of the 
curriculum the sciences, the math, the economics, the 
technology in running the systems as well as just growing the 
food. And so, then they become part of the system there of 
taking responsibility in caring for the system and for the 
plants. By the time those students actually graduate, there's a 
whole different caliber of student there.
    They've learned real world economics. Students actually ran 
a restaurant in town. We're using the local produce that 
they've grown in the local greenhouse during school, learning 
the math skills, the economic skills and then having the school 
lunch program featuring the fresh vegetables that are grown 
there.
    So it's a real incredible opportunity when given access to 
the resources that surround you to be able to solve some of the 
extreme challenges that we have in our great land of extremes.
    I think that one of the real issues is trying to push the 
agencies that are there to really reach potential of their 
mission.
    You represent our landlord because Southeast Alaska is over 
96 percent federally-owned. We only have 1 percent of the land 
in Southeast that's in private hands.
    So I applaud the work that this Committee does, 
individually and collectively, on addressing these issues and 
glad to be part of the conversation and the work as we go 
forward.
    Again, thank you and I'm prepared for any questions you 
might have.
    [The prepared statement of Mr. Venables follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Mr. Venables, for putting that 
into context and reminding us all that when we work with our 
kids early on, allow them to view the energy solutions not as 
what we have today, but what we can be doing tomorrow. I think 
the outlook is pretty good for us with a lot of innovation 
going on.
    I am going to start off the questions here, some pretty 
quick ones, hopefully, for you, Ms. Plowfield.
    You mentioned the fact that within the Office of Indian 
Energy you are a small office, but you are working on good 
things. I recognize that you are small, but I also recognize 
that we are really, really small in Alaska.
    We have had this conversation before. I had received a 
commitment from the previous Administration that we would 
double the size of the Indian Energy Office in Alaska. We would 
go from one to two. We actually wanted three but we were not 
successful with that.
    Now I understand that commitments made in the prior 
Administration don't necessarily carry over, but my question to 
you is what do you intend to do to make sure that the Office of 
Indian Energy is as effective as possible in the State of 
Alaska given the very severe limitations that we have? Again, a 
lot of ground that we have to cover. I am hoping that you are 
going to be able to come up to the state to visit with many of 
our tribes and understand what more can be done, but just very 
quickly what are the plans?
    Ms. Plowfield. Thank you, Senator.
    My plan for the office is to make it more effective as part 
of a broader plan of modernization efforts for the Department 
as a whole. And as I mentioned in my opening statement, in 
December I did ask our team to rethink how we provide our 
technical assistance services more effectively utilizing 
provider networks, localized as you know, in 2016, we made 
grants to seven Alaska entities to provide technical assistance 
and we want to incorporate them. I've spoken to folks at the 
Denali Commission. I've spoken to folks at AEA about helping us 
with that so that we're positioned to provide technical 
assistance locally and expand our capacity in that way.
    And I do appreciate, Senator, I understand the history and 
it's unfortunate that the prior Secretary did not keep that 
promise. I can tell you that the Office of Indian Energy under 
this Administration, we don't intend to make promises that we 
can't keep.
    And we look forward to working with you to continue to make 
our staff as effective as possible.
    The Chairman. Well, again, I would urge you to come up 
yourself so that you have that opportunity to gain that 
appreciation and understanding.
    Ms. Plowfield. Thank you, Senator. I have been up to 
Anchorage and we are planning some more trips in the future. 
And I also understand that the Secretary is very much looking 
forward to his trip with you in a few weeks.
    The Chairman. Yes, yes. We are pleased that he is going to 
be out there. We would like to get you out into some of the 
villages.
    Let me ask you about the Tribal Loan Guarantee Program. You 
indicated that you have had some listening sessions already, 
and you are planning on doing some additional ones. Do you have 
any idea when and where you might have additional listening 
sessions?
    Ms. Plowfield. Thank you.
    Yes, we do. The first one that we had was out in the 
Reservation Economic Summit a few weeks ago in Las Vegas. It 
was very helpful. They got a lot of good feedback. The 
additional sessions planned are for actually next week in New 
Orleans at the National, excuse me, Native American Finance 
Officers Association and then NCAI is meeting in Kansas City. 
We have an upcoming Indian Country Energy Infrastructure 
Working Group in Albuquerque in May. And I've spoken to, 
coincidentally, folks from both Ahtna and Tanana Chiefs that 
were in town this week for the AFN Alaska Day. I've asked for 
their input as to where and when is best in Alaska and it would 
be either probably in the fall at AFN or BIA and obviously we 
would welcome the input from your office as the best time to do 
that.
    The Chairman. Well, I was going to suggest possibly AFN or 
the BIA Providers Conference, so we are all on the same track 
there.
    Ms. Plowfield. Yes.
    The Chairman. But I think that would be an ideal 
opportunity for that.
    Let me ask you one more question, and then I will have a 
chance for a second round here for others.
    I mentioned the Road Belt and the fact that in some of 
these communities the costs are just sky high. I believe you 
are familiar with this proposed Road Belt Inter-Tie Project.
    It is aggressive in what they are trying to do because you 
are connecting about 30 different rural communities, all of 
which rely on diesel-generated microgrids. I mean, these are 
small, but if we can figure this out, it is substantial in 
terms of the opportunities for them.
    It is a big project though. They are estimating it is about 
a $500 million project. But the first step to this is pretty 
modest. An updated engineer's report is estimated to require 
something more in the lines of $1 million.
    Given OIE's mission, given that your budget actually 
increased by a couple million dollars this year, are there any 
opportunities or any tools that OIE has where projects like the 
Road Belt Inter-Tie Project should be looking? I just met with 
these folks this week and they are very keenly interested in 
moving quickly to get some movement on this engineer's report.
    Ms. Plowfield. Thank you, Senator.
    Yes, I actually met with Jason Hoke myself----
    The Chairman. Okay, good.
    Ms. Plowfield. ----this week from the Intertribal, the 
Ahtna Intertribal Resource Commission. We had a very 
collaborative and productive meeting about what we can do. I do 
happen to have a map of the Road Belt Inter-Tie Project on the 
wall in my office.
    The Chairman. We have one right here.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Plowfield. There you go.
    The Chairman. Amazing, isn't it?
    [Laughter.]
    Ms. Plowfield. And you know, we were discussing, as you 
said, some of the gaps in the service there and what we could 
do.
    We're currently, actually, helping them with technical 
assistance. We're getting them connected to some subject matter 
experts to help them establish a tribal utility, and we agreed 
to continue these discussions in the future.
    My recollection is the estimate he gave me, and I will 
check on this, was $1.5-$2 million for the study. And some of 
the options we were thinking about was what other groups we can 
get involved and have a group of folks that all put in some 
money because that is a significant amount and----
    The Chairman. It is significant.
    Ms. Plowfield. ----although we do appreciate the extra $2 
million that was in our budget this year.
    And if I can make one other point to your, the issue of the 
high cost of electricity. I really appreciated what you said 
about it being a powerful reminder of the tradeoffs in your 
opening statement.
    You've talked to many more people up there than I have, but 
soon after I came onboard the first AFN meeting I always keep 
in the forefront of my mind a story from a woman, Jessica, in a 
rural Alaska village who talked about how she had to go out and 
pick extra berries and do extra fishing because they couldn't 
afford their grocery bill because she had to pay her mother's 
electricity bill.
    And between that and I also keep in the front of my mind on 
the high cost of energy issues is when you were kind enough to 
invite me to your office last fall and you showed me the 
picture of the laundry detergent that costs about $50.
    So I'm keenly aware of those issues and I keep them in the 
forefront of my mind as we're trying to solve these problems.
    The Chairman. Let's keep working together.
    Thank you.
    Ms. Plowfield. Thank you.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Ms. Plowfield, I know the President's budget wanted to 
slash your program 37 percent, but thank God Congress had a 
different view of that. And as the Chair was mentioning an 
increase, I think it is about 13 percent.
    In looking at these projects, both in Alaska and 
Washington, is there some summation here about what we have 
learned? Obviously in Alaska it is a lot more focused on energy 
efficiency. In my state it is a little more focused on 
renewables and biomass.
    Ms. Plowfield. Thank you, Senator.
    I think what I've learned in the time that I've been there 
is that everything is up to the tribes and the resources that 
they have, and that all the tribes are different. We can't take 
a cookie cutter approach.
    There's large tribes, small tribes, tribes that have 
resources, tribes that don't. Tribes that are in Alaska have 
unique challenges from the Lower 48.
    So what I've been doing in the office and the team that I 
work with have been making sure that we listen to the tribes 
and what do you want? They come to us and tell us what 
resources they have access to and we assess how we can best 
help them.
    Senator Cantwell. So, you haven't seen anything that's 
scalable on energy efficiency that you think we should be doing 
more aggressively?
    Ms. Plowfield. Not that I can think of off the top of my 
head, but I will ask the technical assistance team and we will 
get back to you with an answer on that.
    Senator Cantwell. Would you? Because the Chair visited a 
company with me in Seattle that was doing energy efficiency, so 
she had a good picture of building monitoring and, in this 
case, they were servicing a lot of different school districts 
and understanding how to control their school district costs.
    To me, efficiency is one of the big challenges. I noticed 
just in looking at the Alaska applications, in the past they 
have all been around that. So to me, the Indian Energy Program 
should be helping us with scalable solutions.
    I love the technical assistance. I love bridging that gap, 
but to me we also should be learning from that what works and 
what ways we can implement that.
    Obviously, our energy bill, by and large, is about energy 
efficiency. We are all gung ho on that, but I think having some 
solutions in Indian Country--whether it is just applying 
something on a broader basis, for say, all the school districts 
or all the public buildings or something of that nature--to me, 
would be a kind of a grand scale idea that we would love to see 
if there are numbers you guys could apply to that, given your 
past experience. If you could help us with that, that would be 
great.
    Ms. Plowfield. Absolutely.
    Senator Cantwell. Mr. Lyons, thank you for your moving 
testimony. You talked about how, through weatherization, every 
$1 invested results in a $4.50 benefit. In fact, the majority 
of these benefits are not even energy savings, they are health 
and safety savings as well.
    What are some of the issues that you think we should be 
addressing to increase weatherization investment? What do you 
think are some of the ways that we could communicate these 
other energy savings and security issues?
    Mr. Lyons. I think part of that is, as I said that you 
know, typically weatherization is seen as strictly energy 
efficiency and we don't want to get away from that. That is 
very important to the program.
    But I think part of it is just what we've tried to start 
doing in the weatherization industry in the last five years is 
really talking about healthy home programs. Washington State 
recently did the matchmaker fund and was able to give us money 
that is a weatherization plus health. And so, one, two 
different things.
    One is looking at what are those health benefits and how 
can we actually document those, I think, in better ways because 
once we do that, I think, we enter a whole new world of looking 
at social determinants of health and figuring out the impact 
that weatherization has in people's homes. We know that people 
spend a lot of time in their home. In looking at those health 
care costs it makes sense that we address that in the home in 
addition to other areas where people are at.
    Senator Cantwell. Yes.
    I know my time is almost expired, but I would love to get 
from you the economic impact of job creation. I note as I have 
seen some of these numbers from Spokane, but there is a huge 
economic benefit from job creation from more weatherization 
investment.
    Mr. Lyons. Right.
    Senator Cantwell. Because obviously it is a win-win 
situation. We make the investment and they help in the 
modernization and weatherization of these homes. The homeowner 
saves money, and we are also putting people to work as they 
implement this. If you could share that data with us for the 
record, I would so appreciate it.
    Mr. Lyons. Yeah. DOE gives numbers, you know, 8,500 jobs 
that are--have been able to be created through the 
weatherization program.
    I can just tell you, locally we probably have, I work with 
five different contractors that are electricians and plumbers 
and insulators. And so, we provide jobs for all those people in 
addition to our own staff that we are able to do.
    But yes, that is a strong component of the program as well 
is that we are putting people to work to actually do this which 
is often very difficult work. It's hard, that's one of the 
struggles we actually have with the program is finding people 
that are willing to go in crawl spaces and attics and spend 
eight hours there and actually be able to do the work.
    Senator Cantwell. Thank you.
    The Chairman. When I left the house this morning my husband 
was up in that crawl space coming down to all kinds of the 
insulation.
    [Laughter.]
    I am not going to volunteer him, though.
    [Laughter.]
    Senator Smith.
    Senator Smith. It has been a long time since I have seen my 
husband up in any crawl space, Senator Murkowski.
    [Laughter.]
    Madam Chair and Ranking Member Cantwell, thank you so much 
for organizing this Committee hearing, and I appreciate it.
    I want to just start by saying I appreciated the 
conversation about the Tribal Energy Loan Guarantee Program. 
That is very important in Minnesota. I suspect I am not the 
only one on this Committee that was disappointed when the 
President did support a cut to this program. I would really 
welcome the opportunity to work with you, Ms. Plowfield, on 
this in Minnesota where it is very important.
    Also, Mr. Lyons, the issue of LIHEAP and weatherization 
assistance is extremely important in Minnesota. I appreciate 
your comments about the connection between home and health 
which is just an integral connection.
    In other committees, we have many conversations about how 
you can't be healthy if you don't have a healthy place to live, 
if you don't have a safe place to live. This is, I think, 
especially an issue in rural Minnesota where the housing stock 
is older than it is in many and, you know, kind of more in the 
suburban and metro parts of the state. Is that your experience 
too?
    Mr. Lyons. Yes, absolutely.
    I mean, one of the things, mobile or manufactured homes are 
much more prevalent in rural areas and they don't stand up over 
long periods of time. And so, but people will continue to live 
in them until they literally fall apart.
    I can tell you from personal experiences, I was just in a 
crawl space on Monday and there's some horrible situations that 
people are experiencing in their homes.
    Senator Smith. Yes.
    Well this is, again, a reason why I think, why I and I 
suspect others and I know others on this Committee were really 
opposed to the Trump Administration budget proposal for 2019 
which would have eliminated the Low Income Home Energy 
Assistance Program and the Weatherization Assistance Program.
    Maybe I will just take a minute more.
    Mr. Hardy, how are you? Good to see you.
    Mr. Hardy. Good to see you. Thank you.
    Senator Smith. I am very interested in this question of 
what should happen with the Western Area Power Administration, 
with WAPA, which is extremely important to co-ops in Minnesota 
as a source of what we are all seeking which is affordable, 
reliable, and clean energy.
    I am wondering if you could just talk a little bit about 
your thoughts about, kind of, what should happen with WAPA, 
whether it is a good idea for it to be privatized or not and 
kind of how you see it coming--what role it plays for rural 
electric?
    Mr. Hardy. Thank you.
    Well, we believe it would have a very bad outcome for us, 
personally.
    When we look at that, if you sell transmission lines, 
there's all sorts of things that concern me from a standpoint 
of cost. If somebody is buying it and somehow able to put more 
levels of greater return in that, that just increases costs. 
And you know, there's not a dollar that I spend or my 
distribution co-ops spend that doesn't come out of the member's 
pocket at the end of the line, when not for profit, that's how 
it works. So the cost of that is one thing.
    And from a reliability standpoint, we go through many of 
the reservations in Montana and as I understand it from all my 
discussions the easements for those transmission lines that are 
a sole source of supply in part of our systems goes across 
those lands, goes across a lot of federal lands. Some of the 
reasons that lines were built by BPA in Montana were strictly 
because it took a federal PMA to get the rights-of-way and 
maintain them through federal lands. So on that front we see it 
as bad. As far as going to market rates, that stability that it 
provides. We do funding so that helps. We work with them about 
which projects. Some of your people are on those committees 
with me.
    And we have a way of saying is this cost effective to make 
this investment, to rewind this turbine, to how do we 
prioritize that with the Corps and the Bureau? It works 
wonderfully. To lose the ability to have the funding stream 
that we're able to create for that is, for us, frightening 
because at the point in time that it goes to market rates, you 
don't know. Right now, markets are pretty low, maybe lower than 
some of the PMA power in certain cases.
    But one thing, and I've been doing this from the time I was 
an energy auditor in '79 to as a general manager and I've seen 
markets go this way and this way and this way. One thing we 
know is however we think the markets are now, history has 
proven it, that we're going to be wrong if we think that's 
where they will be in the future. And to have that ride, even 
the repayment of this, as we make those investments we know 
we're going to be the ones repaying those costs.
    So when we make the investments in energy efficiency 
improvements and to turbines rewinds, we know that that's going 
to cause rate creep, but we know it's important to do. To just 
take it to market, you may not get enough money in to cover the 
cost of those assets, you may over recover.
    Senator Smith. Yes.
    Mr. Hardy. We're very fearful of it.
    Senator Smith. Thank you. I appreciate your comments on 
that.
    I know I am out of time. I just want to say that in 
Minnesota we are so aware when so much of the geography of our 
state has electricity provided by rural co-ops who have such a 
high fixed cost with transmission lines per household served. I 
think keeping this the way it is makes a lot of sense to my 
rural co-ops.
    Thank you very much.
    Mr. Hardy. Thank you.
    The Chairman. Thank you, Senator Smith.
    Senator Stabenow.
    Senator Stabenow. Thank you, Madam Chair. Welcome and thank 
you to all of you for your testimony today.
    As the Ranking Member of the Agriculture Committee, I am 
working with Senator Roberts right now on writing up a 
bipartisan Farm bill. And as you know, the Farm bill programs 
provide critical assistance to rural energy systems through 
USDA Rural Development, particularly the case for Rural 
Utilities Service (RUS) which provides capital, capital 
electric co-ops use to build and improve and harden their 
energy systems.
    So I want to specifically ask about that. Mr. Greek and Mr. 
Hardy, if you could share your experience with the role that 
the USDA Rural Development and, particularly, the Rural 
Utilities Service has in assisting electric co-ops and 
providing much needed electricity and other services to rural 
communities. I would also welcome your thoughts on how RUS 
might be able to partner with your members to help protect 
rural electric infrastructure from cyberattacks and EMPs and 
natural disasters and other threats.
    Mr. Greek?
    Mr. Greek. Thank you, Senator.
    So, I'll talk from, kind of, the generation and 
transmission perspective, and I'll let Mr. Hardy talk about the 
member perspective.
    We have been founded for many years on RUS financing. We do 
not use RUS financing now, but it was an important part of 
building the cooperative to be what it is today and, honestly, 
the cooperative would not be what it is today without having 
had that support.
    We provide the wholesale power, for the most part, to 
members, like Mr. Hardy and the consumers that he represents. 
And our work there is facilitated by their being able to 
successfully receive what we deliver and our, obviously, 
needing to deliver what it is that they need. And RUS, as I 
think Mr. Hardy will point out, plays a critical role in that. 
So I will let Mr. Hardy talk from there.
    Senator Stabenow. Thank you.
    Mr. Hardy. Yeah, many of my members and the co-op I managed 
for years and years before this was key. It was a source of 
capital, just like power markets, interest rates, I'm sure you 
kind of know, goes up and down.
    It was a source that did two things. It not only gave us 
access to capital to make the improvements to maintain the 
lines that wear out, it also gave us standards. Right now, if I 
send one of our crew or our members send the crew ten states 
away there are fairly standardized construction things, there 
are materials that are going to work in many areas of the 
country. The standardization was an important part. And even 
though some have bought out of RUS, having that back stop there 
is a critically important thing to us.
    Senator Stabenow. Great. Thank you very much.
    Mr. Venables, you mention in your testimony the importance 
of the USDA Rural Development High Energy Cost Program. I 
wonder if you could talk more about the financial assistance 
this program provides for projects that assist rural 
communities with home energy costs that exceed 275 percent of 
the national average, and I would also welcome any thoughts you 
might share about how we might improve that program.
    Mr. Venables. Thank you, Senator.
    The USDA Rural Development agency has been a very important 
part of the Alaska utility community. Right now, our 
organization's accessing two different programs to do energy 
efficiency work and also to deploy renewable energy assets into 
communities and assist the business community there. It's been 
a very important part of capital as well to many of the 
members, most of which are co-ops in our communities as well. 
So, those are programs that are very much needed for sources of 
capital and for program support throughout rural Alaska.
    Senator Stabenow. Well, thank you. If you have thoughts as 
we move forward now on the Farm bill, certainly we would 
welcome your input.
    Madam Chair, thank you. This, as we move forward in the 
Farm bill, we are going to have important work to do together 
on these issues.
    So thank you.
    The Chairman. I appreciate your leadership on that, Senator 
Stabenow.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Ms. Plowfield, I didn't catch exactly what you said, but in 
some of your earlier responses you mention that this 
Administration intends to keep its promises in Indian Country 
and that has not always been the case in the past. I want to 
ask you, how do you square that with the Administration's 
proposed FY'19 budget that takes your program from $18 million 
back down to $10 million? It just seems to me it is going to be 
very hard to keep any promises with those kinds of funding 
levels.
    Ms. Plowfield. Thank you, Senator.
    I think that with the effectiveness and the efficiency that 
we are working on in the office that we can still deliver what 
Indian Country needs.
    Senator Heinrich. I would just tell you, I hope that those 
of us on this Committee vehemently disagree with that. The need 
does not begin to be met even at the $18 million funding level. 
So to say you are just going to be more efficient with half of 
that, I think, just doesn't recognize the scale of the problem.
    Mr. Greek, I wanted to ask you. I was looking at a map of 
your service territory, and part of it looks a lot like Tri-
State and I know there is some relationship there. What is the 
nature of the legal relationship with Tri-State?
    Mr. Greek. Tri-State is one of our members.
    Thank you for the question, Senator.
    And we have a, what amounts to a power purchase agreement 
and a long-term wholesale supply agreement with them, and 
that's the nature of our relationship.
    Senator Heinrich. Gotcha.
    You know, one of the frustrations in New Mexico with some 
of our member co-ops with Tri-State has been the limitation on 
how much renewables they can bring on, particularly in a 
distributed fashion within their own service territories. And 
so, we have literally had because Tri-State limited co-ops to 
five percent solar penetration. For example, we have had 
recently a member co-op elect to leave because they wanted to 
be responsive to their own customers who wanted to see that 
number dramatically increased.
    Is that a practice that Basin also engages in, and what are 
your thoughts on it?
    Mr. Greek. So, Tri-State has its own set of policies and 
approaches to issues like that.
    Senator Heinrich. Sure.
    Mr. Greek. Basin does as well.
    We do have all requirements contracts with our members, the 
basic principle upon which we're founded is that we all throw 
in to together and we all do for the whole. Sometimes that 
works directly to your advantage. Sometimes it does not. 
There's sort of a cooperative element to the cooperative 
structure.
    The challenge that we face, and I won't speak for Tri-
State, but the challenge that we face sometimes is that there 
are desired new developments that don't necessarily meet a 
specific need that we have today. And so, there's a little bit 
of, you know, are others willing to subsidize an investment 
that maybe doesn't have to be made at this point in time or in 
a technology that others might say is not as cost effective as 
the other options out there. I think that's the debate in the 
conversation, and I think that's what you're referring to.
    Senator Heinrich. Obviously, there is an interstate piece 
to this as well, but at a time when the rest of the state was 
moving toward portfolio standards that were substantially 
higher, there were a lot of you in the state that when you have 
a co-op that is willing to step up and invest in their own 
generation and, particularly clean generation, that should be 
supported.
    I wanted to ask you a little bit about energy storage, 
because it is going to be playing an increasingly important 
role in grid reliability as well as resilience. We have seen 
battery storage prices, at least lithium-ion, decline by 80 
percent between 2010 and 2017.
    The indications we have from a lot of the energy industry 
journalists and industry websites out there are saying that 
gas-fired peaker plants will no longer be competitive in four 
to five years and in some places they are actually being 
outcompeted today by that technology.
    I wanted to ask you broadly, with regard to just the 
utility industry and then also with regard to co-ops, is 
storage something that is just now being, as a matter of 
course, integrated into integrated resource planning? So when 
you are looking at various different ways to solve a problem, 
is storage something that you run the numbers on?
    Mr. Greek. Thank you, Senator.
    Yes, we do run the numbers on storage. Typically, the 
economics are not such that it gets brought up on occasion. We 
do share the view that somewhere in the future we do believe 
that that will be the case, that that will continue to be a 
declining cost technology.
    We would certainly agree that renewables and other forms of 
non-dispatchable power need to have a partner. That partner 
today is primarily gas-fired generation. We certainly believe 
there will come a point where storage will compete 
competitively with that. We don't see that we're at that point 
today, though.
    Senator Heinrich. Okay, thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Mr. Greek, in your testimony you highlight Basin Electric's 
efforts to ensure that its fossil fuel power generation assets 
continue to operate in what you term a ``carbon constrained 
future.''
    In order to preserve these assets while reducing emissions 
you expressed support for bipartisan legislation such as the 
Future Act, the Use It Act, that will relieve the regulatory 
and the financial barriers to the development of carbon 
capture, utilization and sequestration (CCUS) technologies. 
Could you please explain in a little further detail how the 
expanded deployment of these carbon capture technologies are 
going to benefit the electric co-ops?
    Mr. Greek. Well, thank you, Senator.
    First, I would just make mention that as a cooperative, we 
do own the Dakota Gasification Company. We do sequester CO2 
through enhanced oil recovery now and have for a number of 
years.
    We do see benefit to being able to expand that technology 
to include fossil-fired power plants. There are some technical 
hurdles to overcome and some cost hurdles to overcome.
    We believe that a continued focus with DOE in the Fossil 
Energy Group on trying to resolve those challenges will get us 
to a point where we can all agree that coal-fired assets, and 
even at some point, natural gas-fired assets, can and should be 
a part of our future. And we think that would be in the long-
term best interest of our members and our consumers.
    Senator Barrasso. Great.
    Mr. Hardy, welcome. I know you currently live in Montana, 
but I know you spent your formative years in Cody, Wyoming, 
living down the street from former Wyoming Senator Al Simpson, 
who many people will remember, but even his father, Milward 
Simpson, who was a U.S. Senator, and this guy Don Hardy, who 
was Al's Chief of Staff for a long, long time. Do you know of 
him and have you heard the name?
    Mr. Hardy. Yeah, I call him my oldest brother.
    Senator Barrasso. Oldest. And he wrote the book with Al, 
with Al Simpson.
    The thing about Milward that is interesting is years ago 
when Milward was Governor and then U.S. Senator, Milward was 
asked about coal. He said, ``we will not let that coal sit in 
the ground and rot,'' as only Milward or one of the Simpsons 
could say it. So I want to thank you for being here to discuss 
rural energy challenges which exist.
    In your testimony you note your strong opposition to 
proposals to sell off the assets of the Power Marketing 
Administration, PMAs. You explain that the PMAs provide rural 
electric cooperatives across the nation with reliable, low-cost 
power at no cost to taxpayers and the Federal Government.
    Could you speak about your cooperative's contribution to 
the operations, the management, the maintenance and the 
improvements of the electric transmission and generation 
facilities at the federal dams?
    Mr. Hardy. Yes, thank you for the question.
    If you look at how WAPA gets the money, they do a repayment 
study. And government accounting is obviously very different 
than what I'm used to at my co-op. But they do a repayment 
study of what, how much revenue they have to take in and 
included in that repayment is how they pay the maintenance, how 
they take care of running their system, the poles and wires and 
the Corps and the Bureau's costs in the generation. We pay 
that. We work with them on that and collaborate as far as 
making sure that we agree with what they're doing. And in that, 
the only place of revenue that they have is what we pay. And we 
have been paying for centuries, not centuries, for decades.
    We also work with them into the future on trying to get 
financing options ahead, at least in the WAPA Upper Great 
Plains and Rocky Mountain which would be the Wyoming/Montana/
Minnesota and that area, Pick-Sloan off the Missouri. In doing 
that, through the accounting system we can front money that 
then we know will go on our rates. We know we will pay for it 
with interest, yet it's in the interest and we forward that 
money. And it's a very, very good private partnership with the 
government, private being non-profit.
    Senator Barrasso. Thank you.
    Mr. Greek, Basin Electric is a partner in the Wyoming 
Infrastructure Authority's Integrated Test Center (ITC), which 
to me is a very important research initiative outside of 
Joliette, Wyoming, at Basin Electric's Dry Fork Station. The 
ITC is going to allow researchers to use flue gas from the 
power plant to study potential commercial uses for carbon 
dioxide.
    Could you talk a little bit about Basin's support for this 
Integrated Test Center and how there is the research at that 
facility that is going to promote the long-term use of coal and 
other critical natural resources?
    Mr. Greek. Thank you, Senator.
    Yes, as you know, we produce CO2 anytime we burn a fossil 
fuel and we believe it's important to have commercial uses for 
that CO2 much like we've developed to go to gasification. And 
as part of that we agreed to be the host site for the 
Integrated Test Center there outside of our Dry Forks Station, 
a relatively new coal-fired facility that we believe is one 
that has a bright future to the extent that CCUS and other 
commercial applications of CO2 can be developed and that's our 
primary mission in supporting the State of Wyoming in that 
effort.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Next, let's go to Senator King.
    Senator King. Thank you, Madam Chair.
    First, I want to thank you again for inviting me to Alaska 
a couple of years ago when we were talking about this very 
subject. Going to those remote communities, I have shared with 
friends in Maine my experience of driving on a river to get to 
a community. I have never done that before. That was quite an 
experience, seeing cars going both directions. And it was not 
that deep in the winter, as I recall.
    It seems to me that we are in an energy revolution, and 
rural areas and islands are Bunker Hill. We are talking about 
dramatic changes.
    If we had been having this hearing 25 or 30 years ago about 
rural telephone service, we would be talking about wires and 
poles and infrastructure and all of that. Now we know that is 
unnecessary. I think we need to start thinking about that in 
terms of rural areas, particularly things like islands and 
these little communities in Alaska where it is impossible to 
build a grid.
    To me, what I want to focus on, and I hope you are 
discussing this in your areas, is microgrids, distributed 
generation, the combination. I mean, all of the stars are now 
aligning with dramatically lower costs for solar, dramatically 
lower costs for battery storage, improved software to integrate 
them and things like heat pumps and thermal, electrothermal 
storage and heating. All those things can work in a local area.
    Mr. Venables, you are doing a lot of this kind of work. 
What we really need, it seems to me, is we need the private 
sector to come up with a rural electric system in a box that 
can be scaled, whether it is solar, wind, biomass and scale for 
a community of 80 or a community of 800. Tell me about what you 
are doing in Alaska.
    Mr. Venables. Thank you, Senator.
    You know, the Alaska Center for Energy and Power and many 
of our private sector folks are really working toward that end. 
Alaska is a perfect test case because we have, I mean, all 
across the state are various different types of climate and 
lack of infrastructure.
    Senator King. Yes, you have communities that are, in 
effect, islands. They are just surrounded by mountains and 
trees instead of the ocean.
    Mr. Venables. That is correct and sometimes the ocean as 
well.
    That's what Alaska is, it's really just one series after 
another of microgrids. So there's opportunities for a 
nationwide test site. That's what Alaska really provides and 
for various applications.
    So that is an ongoing exercise that I think the field 
hearing also in Cordova really focused on last year as well. 
And I think that as those projects come to bear, they'll 
provide a lot of----
    Senator King. But are you seeing, are tests being run? Are 
communities doing this? Is it happening or are we just still 
talking about it?
    Mr. Venables. No, sir. It's actually happening. They're 
designing, you know, the battery banks, the integrated wind, 
the solar and finding out the ways to effectively bring the 
resources that surround each community into a sustainable 
microgrid.
    Senator King. Because when you are talking about a 
community and there are islands, but the islands in Maine, by 
the way, are very, very similar. Power costs of $.30, $.40, 
$.50 a kilowatt-hour. Diesel generators and having to ship in 
the diesel. I mean, it is the same kind of problem.
    It just seems to me if you are talking $.30 or $.40 a 
kilowatt-hour that gives you a lot of running room for 
alternatives which would look expensive maybe in Boston but are 
dirt cheap in Cordova, Alaska, or Isle au Haut, Maine.
    Mr. Venables. Yes, sir.
    We're actually, our goal is to get it down to $0.30 or 
$0.40 in many of the communities. It's two and three times that 
amount in many of the communities where you have to fly diesel 
in because there are no roads unless, until they freeze up.
    Senator King. But again, the big deal is this dramatic 
decline, just in the last four or five years, of solar panels, 
battery storage and really creative software that can integrate 
it and then other things like heat pumps and electrothermal 
storage. You can have an integrated system.
    You are smiling, Mr. Herds, am I on the right track?
    I'm sorry, Mr. Hardy.
    Mr. Hardy. Yeah, I'm responding from a standpoint of, I 
mean, you pick Alaska. That's been the islanded system test bed 
for years and at that, at the prices that some of those are, 
absolutely. We look and think about this a lot, whether we're 
changing poles, whether we're buying a high-quality cable. How 
long are we going to need those distribution lines?
    Now it's my belief, we're going to need them a long time. 
It's my belief that they will be coupling together different, 
whether it's microgrids, whether it's different types of----
    Senator King. Sure. The grid itself, if it is there, can be 
the battery, to some extent.
    Mr. Hardy. Well, yeah, it can be the battery. It can also 
be the backup because right now, if you look in Montana----
    Senator King. That is what I mean, backup.
    Mr. Hardy. Pardon?
    Senator King. That is what I meant, the backup, when I said 
the battery. The battery is the backup.
    Mr. Hardy. Yeah, absolutely. It'll be the backup, but also 
needs generation to go with it to do that backup because you 
get in our area, you can be 20, 30 below for a week long 
without any air movement, particularly, and a fairly overcast 
scene. We need other generation because I don't see the future 
that close to us that batteries would be able to bridge that 
far. Within the hour, within the day, that's going to come a 
lot closer. And I think that ability to backup and tie together 
all these is going to be important.
    Senator King. I think the point you make is very important 
is that there is absolutely no one-size-fits-all in this area. 
I mean, in Maine, on the islands, we've got wind all the time, 
but in your area, you may not have that, so it has to be a 
tailored solution. But the point I want to make is 
technological developments in the last few years have really 
given us a set of tools that we just never had before.
    Mr. Hardy. I agree completely.
    Senator King. On that note, I think I will sit down and 
shut up, as they say.
    [Laughter.]
    Thank you.
    The Chairman. Thank you, Senator King.
    I was just talking to Senator Heinrich here. We are going 
to look too to put together yet another field trip for an 
opportunity to see some of these islanded systems.
    I think it is important to note that we have more 
microgrids, stand alones, in Alaska than anywhere in the world. 
So we are pioneering. Some of them are pretty small, but these 
communities are pretty small too.
    When you think about the application to your islands and 
being able to get off diesel, these are significant from an 
affordability, from a livability, from an environmental 
perspective. Doing this is just the right reason for what is 
happening here.
    Senator King. And the time is right.
    The Chairman. The time is absolutely right.
    Senator King. We have opportunities now that we never had 
before.
    The Chairman. Yes, you are right. It is transformative.
    Senator King. Thank you.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair, for this 
hearing and count me in on the field trip to Alaska. I would 
love to go back. I have been there before. I love the 
excitement as well of my colleague because I absolutely agree 
with Senator King.
    One thing I also want to highlight: I have found, because I 
just met with our Nevada Rural Electric Association, in Nevada 
we have many rural communities, actually 17 of our 19 counties 
are rural. And I have found that the co-ops are the most 
innovative because you have to be. Right?
    That is what is exciting about this and what I intend to 
continue, and I think we all, to allow you to innovate and give 
you the tools you need to bring those services.
    But one thing I would love for you to talk about which I 
think is also missed are your members. Those people, your 
customers, are considered members and how it benefits them 
because they are really part of this electric co-op, unlike you 
see in some of our urban areas. They really get a benefit out 
of here and they are part, an integral part, of what you are 
doing. Do you mind talking a little bit about some of your 
members and the benefits and how you look to incorporate them 
into this electric process or your generation?
    Mr. Hardy. Thank you for the question.
    Yeah, I've worked for the people at the end of the line 
whether I'm working for the distribution co-op, it's the people 
at the end of the line. Every one of those members that I care 
about, that I'm extremely protective of the affordability and 
reliability for them.
    We've looked at ways that we can allow them to make the 
decisions they want to on, even with our all requirements 
contract, if they want to put in a renewable aspect that is 
greater than their loads and such, we have ways that we 
purchase it and our power supplier being Basin, actually uses a 
point of delivery for us.
    So we've tried to work that in in ways that it can. It's 
not as cost effective for where we sit right now in most of the 
places, but that doesn't mean that they want to spend the money 
that we haven't found ways to let them do that and push the 
envelope.
    Some of our co-ops have put in where they had long lines 
going out to just a stock well, they use virtually no 
electricity. They've worked with them to, rather than putting 
thousands of dollars into changing those lines out, they've 
gone with voltaics. It's a nice marriage because it has some 
storage with the water and it's worked well. But everything we 
do, there's a member at the end of the line.
    My board is comprised of board members of my members, and I 
have a tribal council member that runs her own ranch, alone. 
And the people that sold it, the Earth people that form our 
members, we're only there because somebody else didn't serve 
them. We're not there because we went out and took territory 
from somebody. They weren't served. That's why we went out. We 
expand and try to find ways to compromise. It's a compromise 
between the impact of existing members and the new members. 
Every decision we make is a balance of how it affects the total 
membership.
    Senator Cortez Masto. Right.
    What I have found, and I know I am running out of time, but 
what I have found is that those members actually have a say, 
right? They are involved in their energy, in the cost and the 
resources and the technology. And it goes back to the 
technology. This internet of things and smart meters and 
storage, battery storage, allows your members to actually 
actively participate in the use of their electricity and 
whether they want to sell it back or be involved in this 
process, correct?
    Mr. Hardy. That is correct.
    And each of those members elect our governing bodies, those 
members, their neighbors, elect people to be our boards of 
directors. It's not like some company somewhere else puts 
people in there. It's themselves, a democratic process of 
electing.
    So, if I, as a manager, am not representative of my 
membership, I have a nice path out the door.
    Senator Cortez Masto. Yes.
    Mr. Hardy. And that, I have seen with boards when you have 
a board that gets a little outside the interest of their 
memberships, you know----
    Senator Cortez Masto. It is a great business model and that 
is why I support them.
    So let me jump really quickly because I am running out of 
time here. A couple of things.
    In Nevada, we also have large Indian tribal communities, 
and in Nevada many of the tribes have plans to expand 
businesses on reservations in order to provide jobs for their 
members. And some of the business activity includes opening 
their land to renewable energy projects such as the Moapa Band 
of Paiutes. I was just visiting with them. They currently have 
a solar facility created in partnership with First Solar, and 
this generates energy to serve the needs of about 111,000 homes 
per year.
    Ms. Plowfield, what is DOE's Office of Energy's plan to 
further enable electric facilities to be constructed for our 
unserved and underserved tribal homes and businesses?
    Ms. Plowfield. Thank you, Senator, appreciate the question.
    As I said, we just finished a funding opportunity 
announcement and I'm not sure if any of the tribes in your 
state have applied to do that, but that's exactly what those 
are meant to do.
    And in addition to that, in addition to these opportunities 
being able to help provide their own tribe, they can also end 
up selling it to other places and provide themselves income 
through that method.
    Senator Cortez Masto. Can I ask you, when you say the 
funding opportunities that means that is out of your existing 
budget, but if there is a decrease in the budget, that 
decreases their opportunities to participate. Is that right?
    Ms. Plowfield. Yes, it would.
    Senator Cortez Masto. Okay.
    I know I am running out of time, but with your indulgence, 
one quick question because I do have concerns about the Indian 
Energy Loan Guarantees that the Chairwoman talked about as 
well. Just a quick question.
    It is my understanding DOE never promulgated rules as to 
how the program would be implemented. Is that true?
    Ms. Plowfield. Thank you, Senator, just if I could just go 
back to the last question on the budget.
    Obviously, Congress plays a role in the budget and DOE 
would carry out any final budget based on Congressional action 
with regard to the percentage of the budget. The Loan Program 
Office is actually responsible for administering the Tribal 
Energy Loan Guarantee Program, and my understanding was that 
there was no new rule that needed to be promulgated, that 
they're using an existing rule that----
    Senator Cortez Masto. So that wouldn't hinder you 
appropriating the funds or letting the funds that have been 
appropriated for the program. Correct?
    Ms. Plowfield. Correct.
    Senator Cortez Masto. Okay, great. Thank you.
    Ms. Plowfield. Thank you.
    The Chairman. Thank you, Senator.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman. Again, thanks to 
all the witnesses for being here today.
    Matt, I want to ask you about the Allam cycle and where you 
are in that process of getting that up and going and how it can 
really crack the code in terms of carbon capture and 
sequestration. And then, the things that you need to really 
move forward with it.
    Mr. Greek. Thank you for the question, Senator. Thank you 
for the gracious introduction earlier.
    For those who don't know, the Allam cycle is essentially a 
super critical CO2 cycle and it offers the opportunity to 
address two of the key issues that we have relative to carbon 
capture, utilization, and storage. Those being leaps in 
technology and in cost effectiveness.
    What is different about the Allam cycle is that it allows 
us to use a fossil fuel and produce a high-pressure CO2 stream 
that is essentially ready coming out the back door for 
sequestration or EOR or other usage. That is important to us 
because right now there's a pretty good impediment to using 
carbon capture systems that require refinement of flue gas into 
CO2. So the ability to do that at a technical level would 
substantially improve the cost effectiveness of such a cycle.
    Now the CO2 enters into the conversation in terms of 
getting you a higher efficiency cycle that will give you a 
lower overall cost of production. Where it is today? There's 
natural gas demonstration being conducted in Houston, Texas. We 
expect that to be complete here within the next 12 months or 
so.
    At the same time, we're doing research on looking at 
combusting coal in a way that would allow us to use it as feed 
stock for that same cycle.
    Senator Hoeven. Right, but what are the key things that, 
you know, you have a group, a consortium, Basin, Elite Energy, 
Energy Environmental Research Center, that is working to 
advance this project to actually, instead of just talking about 
carbon capture and sequestration, doing it and doing it in a 
way that is not only technically viable but commercially 
feasible which is what needs to happen in order for this 
technology to become ubiquitous using it, not only here in our 
country, but around the globe which is the real, our way, to 
address the issue. What are the things that you need help with 
from state and local government levels to make it happen?
    Mr. Greek. Well, thank you, Senator, and thank you for your 
support to this point that this helps us to do that work.
    There is quite a bit of ground yet to cover in terms of 
piloting the technology, taking the technology to scale. That 
all presumes that the work we're doing today gives us a 
successful outcome. It doesn't have to be retested and refined.
    If we do have to, you know, recycle back then that will be 
an opportunity for support and work with Fossil Energy at DOE 
as well.
    Those are, sort of, the technical challenges we still have 
in front of us and would expect that we probably have another, 
oh, five years, six years, maybe as many as ten years of work 
to be able to deploy this on a commercial scale.
    Senator Hoeven. So you need assistance from the DOE Fossil 
Energy program. What other things would be helpful to you?
    Mr. Greek. Well, the other things that we need and some of 
them we're getting, is the ability to do sequestration without 
long-term liabilities. We did get primacy recently from the 
Federal Government for North Dakota that opens up some doors 
and gives us a pretty good avenue to do sequestration.
    There are other challenges along the way. So, as you 
certainly are aware, we have the Bakken shale in North Dakota. 
We would like to be able, at some future point, to be able to 
use enhanced oil recovery in that shale. There's technical work 
to do to advance that science and get to the point where that's 
true.
    So, those are some of the other areas that I would 
highlight as needing additional work.
    Senator Hoeven. Well, I am glad to hear that. We worked 
very hard to get the regulatory primacy. I am glad that is an 
important step and we know it is, but we are trying to work on 
the additional steps to truly make your partnership successful.
    Switching gears a little bit. Talk to me about how we 
should address baseload generation in regard to the 
transmission grid because you are a great example of a company 
that has both baseload power, coal-fired electric, but you also 
have gas and wind. How do we make sure that we have a 
transmission grid that works in a way that we have power all 
the time, even at peak demand time?
    Mr. Greek. Well, thank you for the question.
    Obviously we put a fair amount of investment into our 
transmission grid over the last ten years owing to member 
growth, particularly in North Dakota around the Bakken. Having 
the ability to finance and execute that work, having the 
ability to site it and go through the process of getting the 
permits that you need is critical. Siting can be a delay.
    One of the projects I worked on personally, we ended up 
taking what amounted to about a six-month delay, you know, it 
didn't change any of the permitting criteria, but there was, 
sort of, a late set of questions that held the whole process 
up. And you might say, well, what's six months? Well, in North 
Dakota six months is critical because the winters in North 
Dakota are a little different than the summers and a lot of 
work that could have been done in the summer ended up being 
done in the winter. It's important to be able to execute with 
certainty any time we're doing major capital work. And so, 
there's an opportunity. And we appreciate the work that's been 
done to this point, but there continues to be an opportunity to 
improve that regulatory reality as well.
    Senator Hoeven. So as far as saying what about making sure 
that baseload has access to the grid?
    Mr. Greek. Well, obviously we have to be able to 
participate as a whole partner in the grid. We have organized 
markets in a portion of our service territory. We have areas 
that do not serve, are not served, by organized markets.
    It's a set of work there, maybe to do, as you're probably 
aware, we're trying to be part of a more organized market on 
the west side of our system. Those steps are critical to 
ensuring appropriate access for the generation that we have.
    Senator Hoeven. Okay.
    Thanks to you and to all of our witnesses for being here 
today.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Hoeven.
    Senator Daines. Know that your constituent from Montana has 
done a wonderful job educating us on the co-ops out there, but 
it is good to have you here.
    Senator Daines. Glad to be here.
    Thank you, Chairman Murkowski, for holding this important 
hearing. Rural America has been a focus of this Committee, and 
I think that it stems from some of the states that we have on 
this Committee. You don't get much more rural than Alaska, 
Montana, Wyoming, and I will add North Dakota to that list here 
too.
    I do first want to thank Mr. Hardy for coming all the way 
out to DC yet again. He was just out here with a great group of 
Montanans representing our electric co-ops last week. And I can 
tell you, having a Montana voice speaking of the unique 
circumstances in a rural state like ours is very, very 
important to bring that voice to Washington, DC.
    Most of Montana's energy is generated from coal or 
hydropower. That balance of affordable and reliable energy has 
served our state very well. However, threats to both of these 
sources have been growing for years. Licensing and relicensing 
of hydro assets are taking longer and longer and they have, at 
times, been so long that Congress has had to step in to 
relicense certain dams. Furthermore, fringe litigation has 
caused projects to be delayed or shut down. In effect, it has 
resulted in the eminent closure of Colstrip Units 1 and 2.
    I believe it is extremely important that we streamline 
permitting processes to give security to these rural 
communities, some certainty to them. They rely on these jobs 
and the electricity produced from both coal and hydro.
    Mr. Hardy, welcome, it is good to have you here. You 
mentioned in your testimony, briefly, how rate hikes and 
changes can have major impacts on rural Montana. Rural 
communities depend on affordable, reliable energy. We have a 
lot of seniors that live on fixed incomes. They see their 
property taxes going up. They don't want to see their utility 
bills going up. The smallest changes can have big consequences.
    What are some of the current threats to Central Montana 
that could cause rate hikes in Montana?
    Mr. Hardy. Thank you.
    On the hydro side, anything that stacks costs on top of the 
Western Area Power is a concern. It drives Central Montana as 
far as the lower cost resource that we can go in. On the other 
side of our power supply, about half of it comes from the 
combination of renewable and other facilities that, in our 
case, Basin Electric has, and anytime they build something, you 
don't put in assets in the utility world that last five years. 
They better not.
    But with the capital costs of whether it's going and doing 
wind generation, solar, coal or anything, you need to be able 
to know with certainty that if you build it, you're able to run 
for the life cycle of that cost. And you need to be able to 
have the permitting go through in a seamless way.
    We worked hard in our state to get, for instance, a Sage-
Grouse plan, as did Wyoming and some other states, to where we 
could work, protect the species and at the same time keep it 
from being delisted and not harm it while we had development to 
the degree that we have to redo permits.
    Some of our projects don't get done as quick as you wish 
for different reasons to the degree you have to go re-permit it 
with a variety of agencies. It takes a lot of time and, again, 
to what Mr. Greek said, our construction season, especially on 
the high line, is extremely short. You go from mud season to a 
few months of construction season to frozen earth season in a 
hurry in Montana.
    Senator Daines. Yes, the rumor is we are going to plan to 
have a summer on August 15th this year in Montana, and if it is 
snowing, we are going to move it indoors. We will see how that 
goes.
    Mr. Greek, I understand that nationally, rural areas served 
by electric co-op utilities rely on coal for a big percentage, 
41 percent, in fact, of their capacity. A question for you is 
how important is coal to rural electric co-ops like yours and 
can you give some insight into how important it is to have good 
variety of power generation for customers to ensure they 
receive reliable, resilient electricity at an affordable price?
    Mr. Greek. Thank you, Senator.
    Well, coal is very important. It still constitutes for 
Basin Electric the majority of megawatt hours that we provide 
to our members. In addition to the direct benefit to our 
members, it also provides local benefits in employing folks in 
the mining operation and the production operation and in the 
operation of the power plants. Moving away from that in some 
significant degree would be devastating to the communities that 
rely on it as their primary source of income.
    In terms of reliance and resilience, reliability, our 
members request us, generally pretty straightforward--it's 
reliability first and it's low cost power second, and you 
better not trade two for one or one for two. And part of that 
is having dispatchable power that's available to you, 24/7/365.
    Coal is one of those technologies that provides that, both 
in terms of the technology itself and in terms of the way we 
can manage inventory. As you know, it is difficult to store 
electricity. And while there have been advances in the battery 
front, that is still not a commercially viable option for us 
and for our membership.
    And there will always be, in my mind, a need for 
dispatchable power. Fossil fuels, including coal, are the 
foundation upon which that dispatchable power is built today.
    Senator Daines. Thank you, Mr. Greek.
    The Chairman. Thank you, Senator Daines.
    I have a couple more questions, and I would like to go to 
you, Mr. Venables.
    We talk about some of the policies here that can help 
really advance some of our more clean, more affordable energy 
solutions. It is good that we focus on this, but we also have 
policies that we put in place that actually make it harder, in 
fact, in times almost impossible to make those advances toward 
cleaner, more affordable, renewable energy sources.
    In Southeast Alaska, we are blessed with extraordinary 
hydropower resources. We know that. We have some great assets 
there. It is one thing to have the resource in an area, but you 
have to be able to move that power. You have to have the 
ability for transmission.
    We have a situation in the Tongass where we have in place a 
roadless rule which affects 9.5 million acres of land within 
this area. You pointed out in your testimony, Robert, that you 
have less than about one percent of land that is privately held 
in Southeast in the Tongass. This has an impact on our ability 
to not only build out an economy, it puts us in a situation 
where we are not able to do more when it comes to development 
of our renewable opportunities when it comes to energy. This 
costs jobs, it increases energy costs, and it costs us 
opportunities to grow. Can you speak just briefly about the 
impacts that the roadless rule has had on building, not only a 
sustainable economy, but what it has meant to energy prices as 
a direct result of the roadless?
    Mr. Venables. Thank you, Senator, for the question.
    Briefly, maybe.
    The Chairman. Yes.
    [Laughter.]
    Mr. Venables. All day, for sure.
    The Chairman. Yes, yes, yes, I know.
    Mr. Venables. It's really the cannonball approach to 
killing a fly. It rarely hits the fly and it causes a lot of 
damage. And the damage is really at many levels because it puts 
so much of the lands unaccessible. There's just not access to 
whether it's biomass, whether it's hydro or you know, whatever 
the resource is, and not just to the industry because there's, 
you know, and it really has very little, contrary to a lot of 
the politically charged characterizations of the roadless rule, 
the removal of that does not mean that there's roads all over 
the 17 million acres of the Tongass. That is not at all the 
case. It really denies, the roadless rule denies the 
commonsense approach to best management practices where logging 
is appropriate and should occur as a renewable industry. They 
don't have access to it, just maybe because it's 65 feet off of 
the wrong marker.
    Even though the household level, I was just impressed as 
well as last month in talking to the folks that, as I 
referenced in my earlier remarks about the school districts and 
the biomass heat there, well, instead of sending their check to 
the Lower 48 for the fuel company, what they do is they spend 
money on the local people, that one of the families that want 
to bring in a quart of firewood at a time to the school, they 
get paid their money. Well, a lot of times where they get that 
is from the logging sales that still have a lot of fallen 
timber that are laying there available for firewood. And now, 
not only are roads not allowed, they're digging up the ones 
that exist and that's denying families an opportunity to 
develop their own household income. And the logs that are 
laying there produce, you know, much more noxious gases than 
carbon dioxide. So it's a very futile approach to try and 
manage the forest that we have there.
    It really is indicative of, I think, the fatal flaw in a 
lot of the programs agencies have is that the rulemaking that 
they make is not following the guidance they have from 
Congress, it's just administratively what is politically, you 
know, comfortable for the day and it does incredible damage 
from afar. If they would empower people on the ground in the 
state that would be much more effective management approach, 
but instead it gets micromanaged from afar.
    Even putting in a simple transmission line for the 
community of Kake, which has high energy costs, $0.58 a 
kilowatt-hour. We were able to get it permitted but because of 
all of the kaleidoscope of different land use designations and 
the rulemaking that goes into each different one, the cost of 
that, of constructing that, was going to be between $50 and $60 
million for just a small segment. It was only like 11 miles of 
new road that would have to be built. And so, it just makes the 
project impossible to construct and then they would mandate 
helicopter maintenance which is impossible to maintain for a 
community----
    The Chairman. So when you think about that--$50 to $60 
million to construct for a 10, 11 mile----
    Mr. Venables. Yes, Senator, it is. It's about 60 miles in 
total, but there's only about 11 miles of new road.
    The Chairman. Eleven miles of new road, and the community 
of Kake is how many folks?
    Mr. Venables. 500.
    The Chairman. 500.
    Pretty tough to make something like that pencil out. The 
sad irony of all of this is you want to try to help this 
community get off diesel and the way to do it is to allow for 
this small connect, but you can't pencil the project out so you 
don't get the cleaner power source. You don't get, ultimately, 
the cheaper power source. You basically condemn a small 
community to a continuation of diesel power generation.
    It is one of the real frustrating realities of what goes on 
around here. We have a push to say well, you cannot put a road 
in a national forest whether it is for timber harvest or 
whether it is to allow for maintenance of a transmission line.
    So in an effort to be environmentally pure and not cutting 
down a tree, we are condemning people to an energy reality that 
is dirty, inefficient, expensive, and it is just wrong.
    My question to you, obviously, was very purposeful. I think 
both of us could talk about this for a long while, but I think 
it is important to recognize that the roadless rule is not just 
about a timber harvest within the country's largest national 
forest. This is about communities that are a part of this 
extraordinary area that have been held back from an economic 
perspective, held back from the ability to really have much of 
an economy if we cannot get them to better energy solutions. 
And it is not just the economy, but it is the ability to 
develop other resources that may be there whether it is mineral 
opportunities or the like. It is a challenge for us and it is 
one, as you know, we continue to work and work aggressively.
    I wanted to ask you another question, Robert, about some of 
the successes that we have seen. You mention change out for 
some of our schools, changing out from diesel boilers to our 
woody biomass alternatives and some of the good things that we 
have seen there. What do you consider to be the biggest 
barriers to adding more efficiency solutions in the state? 
Where is our holdup right now?
    I want Ms. Plowfield to be listening carefully here because 
I think that we should be able to make some headway through the 
Office of Indian Energy, but where are we not doing as much as 
we need to be doing?
    Mr. Venables. Senator, thank you.
    You know, tied right into the whole issue with the roadless 
rule and the impacts of, you know, how federal policies are 
maintained. The same applies for the opportunities for tribes 
to develop the alternatives for the energy. With the extreme 
levels of turnover at a lot of the agencies and constrained 
budgets, it's hard for them to do anything other than find the 
lowest common denominator within the comfort zone of 
administrating their programs.
    But the majority of projects we have on the forefront right 
now in Southeast that would benefit the tribes are denied even 
eligibility to respond to the notice of funding that was 
referenced earlier in testimony because either the land is not 
outright owned by the tribe, even though it's serving tribal 
communities and members and served by a co-op that's primarily 
a tribal entity. It's just, it denies them an opportunity to 
attract the funding that they need to get.
    In one instance, like in Angoon, the Kotzebue folks there, 
they traded away a lot of their lands with the establishment of 
the Admiralty National Monument, federally-owned, and in return 
they were given the rights to hydro to develop for their 
community which is desperately needed because there's a 
microgrid, there's no hope for getting any economic dispatch 
from some other places. There's no roads. There's no 
transmission line. Even if you look at a map, it shows a 
reserve for that project. But yet, that land is forest service 
land. But they're not eligible, even though the community is 
100 percent Tlingit, it's a tribal community. It's serving 
Indian Country, but it's not considered Indian land and now 
they do not have access to funds.
    So I think just pushing agencies, whether it's the Forest 
Service or DOE or, you know, whatever the federal agency is, to 
really look at the goals of their missions that they're 
statutorily enabled to do by law to make some exceptions for 
some exceptional cases.
    The Chairman. Well, the example that you have given of 
Angoon is a pretty compelling one. Of course, in that community 
I am pretty sure that their costs are over $0.50 a kilowatt-
hour. Yes?
    Mr. Venables. Yes.
    The Chairman. Yes.
    Mr. Lyons, let me ask you a similar question in terms of 
barriers to doing more with what we have directed when it comes 
to weatherization and efficiencies because I believe, as you 
have cited, that there is still plenty of opportunity to do 
more. Is it just a matter of funding and resourcing or do you 
also see some policy initiatives that we need to, kind of, weed 
through or sort through that would allow us to do more on the 
efficiency and the weatherization side?
    Mr. Lyons. Obviously funding is a critical part of that, to 
be sure, but I think also there is that matter of regulation as 
well.
    When we had our funds, we were able to ramp up and do some 
amazing work with those funds, but of course, the way that 
works, right, is that you receive the funds and they came back 
and looked at it and they found some discrepancies in how some 
of the funds were used.
    But I would say that most of those discrepancies happen in 
states that were simply starting their weatherization program. 
And so, they were working from a ground level. States like 
Alaska and Washington and Montana that have been doing 
weatherization for a long time had established programs and our 
error rates and discrepancies were much lower and, I would say, 
relatively insignificant.
    So with that change that they came back, there were a 
number of changes to the program that, I think, it makes it a 
more bureaucratic program. There are just a lot of rules and 
regulations that we have to make sure that we implement as part 
of providing weatherization services. Some of those are good, 
in terms of quality control. Some of those, I think, are 
unnecessary. We have, I would say, the weatherization services 
that the lower income program provides is the most 
comprehensive weatherization services being provided in the 
nation. We have separate auditors and inspectors that look at 
every single project that we do. And so, there is a lot of 
admin and program support that is required as part of the 
program, partly due to regulation.
    I would say the other thing, the barrier that we definitely 
have that I mentioned earlier is the ability to get trained 
workers, both in the terms of from my side, actually auditing 
buildings, and then also the physical work to be able to do it.
    We have good training centers. I've been trained by people 
from Alaska, actually, that have their own unique 
weatherization issues, as you can imagine. But to provide, to 
get people actually into the workforce and pay them wages that 
makes it worthwhile over time.
    In Washington State we had a unique situation in that we 
have a prevailing wage requirement on the part of the State 
Department, I mean, part of the state, but at the same time, 
they are not willing to create a prevailing wage category for 
weatherization. And so, that's made the implementation of 
tracking prevailing wage in the weatherization industry 
extraordinarily difficult.
    The Chairman. Interesting.
    Now I know, certainly within Alaska, we had several of our 
tribes lead with the weatherization training. I think it was 
Tlingit Haida was very involved with that. Being the 
weatherization auditors, I guess, was the terminology.
    I would challenge all of you and certainly for those that 
are part of our co-ops, we are doing a lot of just working with 
the Administration and the agencies on trying to identify those 
regulations that may be redundant or just outdated, 
unnecessary, considered to be unduly burdensome. We are trying 
to move through some of the things that are holding us back.
    I think particularly when it comes to rural energy and the 
opportunities there, you mentioned, I think, both Mr. Greek and 
Mr. Hardy mentioned, the vegetation issues that we have been 
working on. We have made some good headway there that was 
reflected in the Omnibus bill.
    So things like this, I think, we can look to and we can 
make some headway there. But let us know if there are areas 
where within your region, in the areas that you are working, 
where you have some good suggestions for us that we can share 
with the different agencies in terms of how we can do more by 
just cutting through some of the clutter of the regulation. It 
is not that we are trying to eliminate a permitting process. 
It's not that we are trying to avoid environmental process, but 
I think we recognize that there are efficiencies that we can 
gain if we look for them.
    And you all are in a much, much, much better position to 
help us identify what those are because you are living with 
them day in and day out. So I would invite you to stay in touch 
with the Committee here and provide us your feedback in these 
areas as we move forward.
    You have given us good information here today. It puts an 
important perspective on the reality of energy and how our 
energy assets are distributed. I think the reality is that much 
of what is generated, where we get our power from, it comes 
from rural America and we have just got to get it to the folks 
that want to live in places like Washington, DC.
    So you are where it is all happening, and we appreciate 
that a great, great deal.
    But oftentimes, it seems that where the resource comes from 
often bears most of the burden in the sense that we are still 
paying high costs, we might not see the full benefit play out. 
We need to make sure that we are doing right by our rural 
communities, by our families, who are part of rural America. 
Let's make our energy system a more equitable system. I 
appreciate the efforts that you are doing in that regard.
    With that, I thank you for your time today and the 
Committee stands adjourned.
    [Whereupon, at 12:11 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
